ORIGINAL
= 1792
FILED

3fn tfje Supreme Court of tljc fHntteb H>t< tes^c g g 2020
OFFICE OF THE CLERK
SUPREME COURT W

Patricia Earnest; Janet Kelly,
Petitioner,
VS.
Joann Ellison, et al.,
Lawrence A. Beiski,
Jack G. Gibbs, Jr., Alphonse P. Cincione
Respondent

On Petition for Writ of Certiorari
To the United States Court Of Appeals for the Sixth Circuit

PETITION FOR WRIT OF CERTIORARI

Joann Ellison
1541 Delcastle Loop
Grove City, Ohio 43123

Patricia Earnest
1240 E. Cadron Gap Road
Conway, Arkansas 72032
(501)499-6072

Jack G. Gibb Jr.
580 South High Street
Suite 300
Columbus, OH 43215
(614)224-3191

Janet Kelly
1860 Tree Brooke Lane
Snellville, GA 30078

1

QUESTION PRESENTED
Does a court of appeals deny a party due process
under the 14th Amendment when it decides the case on
a basis never litigated or passed on as a matter of fact
or law in the trial court and raised for the first time on
appeal.

11

PARTIES TO THE PROCEEDINGS
The parties are:
Patricia Earnest, Janet Kelly, petitioners

Joann Ellison, et al., individually and as Executor of
The Estate of John H. Ellison, Sr.,
Lawrence A. Belskis,
Jack G. Gibbs, Jr.,
Alphonse P. Cincione, respondent

Ill

TABLE OF CONTENTS
QUESTION PRESENTED

.1

PARTIES TO THE PROCEEDINGS

11

TABLE OF AUTHORITIES

1111

OPINIONS BELOW

1

JURISDICTION

1

CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED...............

1

STATEMENT

5

Factual Background

5

Procedural Background

5

REASONS FOR GRANTING THE WRIT
CONCLUSION

6
23

APPENDIX
Appendix A Opinion in the United States District Court For
The Southern District of Ohio
Appendix B United States Court of Appeals
for the Sixth Circuit September 17, 2020
Appendix E. Motion for Relief from Judgment Pursuant to Rule 60 of the
Federal Rules of Civil Procedure in the United States District
Court for the Southern District of Ohio
•App.7
Appendix F

Before this Honorable Court United States Court of Appeals Motion
To set aside Order before the Honorable Guy,Clay,Donald..App.9

1111

TABLE OF AUTHORITIES
CASES
Singleton v. Wulff, 428 U.S. 106,120 (1976)......

4

Turner v. City ofMemphis, 369 U.S. 350 (1962)..

4

Hormel v. Helvering 313 U.S. 350 (1962)..........

4

Dandridge v. Williams, 397 U.S. 471,475 (1970)

4

U.S. V. Lovasco, 431 U.S. &83, 788 n. 7 (1977)..

A

CONSTITUTION
U.S. Const, amend. 1st

2

U.S. Const, amend 14, Sec.l

1

Civil Rights Act of 1871

2

STATUTES
28 U.S.C. § 125

1

28 U.S.C. §§ 1331 and 1343

2

42 U.S.C. § 1983,1985, 1988

2

OTHER AUTHORITIES
Federal Rule 60 Rules of Civil Procedure

4

1
Patricia Earnest and Janet Kelly respectfully petitions for a writ of
certiorari to review the judgment of the United States District Court Southern
District of Ohio Eastern Division and of the United State of Appeals for the Sixth
Circuit in this case.

OPINIONS BELOW
The United States Court Southern District of Ohio Eastern Division
opinion is unreported. Petition Complaint Appendix) The United States Court
Southern District of Ohio Eastern Division denied Plaintiffs Complaint.

JURISDICTION
The judgment of the United States Southern District of Ohio Eastern
Division was timely with the United States Court of Appeals for the Sixth Circuit
and denied and the mandate filed in this case September 17, 2020. (Pet. App. 1).
The jurisdiction of this Court is invoked under 28 U.S.C. § 1257(a).

CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
U.S. Constitution, amend. 14, Sec. 1, provides in relevant part:
No State shall

deprive any person of life, liberty, or property,

Without due process of law;

2

Patricia Earnest and Janet Kelly on their claim of a constitution
violation and in their complaint state enough facts to state a claim for relief and
Patricia Earnest and Janet Kelly present a genuine issue for a trial and was denied a
trial. That article establishes the principle of equality before the law and prohibits
all forms of discrimination include arbitrary discrimination in law or by any
authority and racial discrimination and any person who is denied or cannot enforce
in the court of such State a right under any law providing for the equal civil rights
of citizens of the United States or of all persons within the jurisdiction thereof; for
any act under color of authority derived from any law providing for equal rights, or
for refijsing to do any act on the ground that it would be inconsistent with such law
based on any the following:
On August 19,2019, this action was filed in the United States District Court
Southern District of Ohio Eastern Division pursuant to 28 U.S.C. §§ 1331 and
1343., in conjunction with the Civil rights Act of 1871,42 U.S.C. sections 1983,
1985,1988 and Fourteenth Amendments to the federal Constitution. Appellants
Patricia Earnest, Janet (Kelley) Kelly sought in the complaint for compensatory
and punitive damages for civil conspiracy with the underlying damage claims
being tortious interference with contract of a WILL and the Business expectancy or
interest and abuse of process.
On February 3, 2020 the district Court issue an Order dismissing Patricia Earnest
and Janet Kelly complaint after the district court issue the order on February 3,
2020 Patricia Earnest, Janet Kelly file a Motion for Writ of Mandamus to set aside
Court Order dated February 3,2020 and Judgment by Honorable Judge Sarah D.
Morrison on February 3, 2020 With Brief Incorporated and states the defendant
Joann Ellison did not file an Answer after been serviced the summon of the
Complaint upon the defendant, Joann Ellison.
The matter before the Court the issue is that the defendant did not file an Answer
to the Complaint in the United States District Court for the Southern District of
Ohio Eastern Division that is required by the United States District Court for the
Southern District of Ohio Eastern Division pursuant to the Federal Rules of Civil
Procedure.
That in the district court Joann Ellison did not file a motion to dismiss the
Plaintiffs Complaint the Honorable Judge Sarah D. Morrison took her own

3

initiative to dismiss Plaintiffs complaint without the defendant filing a motion to
dismiss Plaintiffs Complaint.
The Court error (“R&R”) issue by the Magistrate Judge on January 3,2020 (ECF
No. 10).
The Plaintiff attach proof of service to the motion to set aside plaintiffs Patricia
Earnest and Janet Kelly filed their “motion for Relief from Judgment or Order
Motion to set Aside Court Order Dated October 28,2019” on January 13,2020.
(ECF No. 11.) That filing, which the Court shall treat as an objection to the R&R,
seemingly argues that service was not effected on the Defendant Joann Ellison she
was served a summon and the summons’s was served by the Sheriff and after
being served a summons by the Sheriff Joann Ellison call Patricia Earnest and ask
why was she served a summons complaint. The Magistrate Judge October 28,
2019 Ordered denying Plaintiffs motions for default for lack of service should not
be denied. The Plaintiffs Motion for Writ of Mandamus to set aside Court order
October 28,2019 Order denying Plaintiffs Motions for default for lack of service.
In the district court the plaintiffs Motion for Writ of Mandamus to side Court
Overruled and the relief sought and denies accordingly, the Court Overrules
plaintiffs objections to the R&R and denies plaintiffs motion to set aside court
order dated October 28,2019. (ECF No. 11.) Plaintiffs Motion for Writ of
Mandamus to set aside Court adopts the R&R (ECF No. 10) and dismisses
Plaintiffs Complaint.
The Court erred in dismissing the Plaintiffs, Patricia Earnest, Janet Kelly
the Complaint against the defendants in the district court.
Before us; in our presence , i, e, in our Court after file this Complaint in the
United States District Court for the Southern District of Ohio Eastern Division the
plaintiff is seeking a grand jury investigation and a Congressional Investigation.
Patricia Earnest and Janet Kelly lawsuit has been filed against Alphonse
P. Cincione and in the state court the defendant has not filed an answer or
responded to the Plaintiffs Complaint in the state court therefore the defendant
failed to file an answer the defendant is in default.
The Defendant in the district court is in Default because the defendant has not filed
an answer or has not responded to a summons within 21 days after service of the
summon on the defendant Alphonse P. Cincione.
The Plaintiffs Patricia Earnest, Janet Kelly lawsuit has been filed against

4

the defendant Joann Ellison and the defendant has not filed an answer or responded
to the Plaintiffs Complaint in the district court and is in default because the
defendant has not responded to an summons within 21 days after service of the
summons on the defendant Joann Ellison.
Patricia Earnest, Janet Kelly filed a timely Notice of Appeal and the Appeal was
docketed on April 06,2020 in the United States Court of Appeals for the Sixth
Circuit and this Court has jurisdiction to hear this appeal pursuant to 28 U.S.C. §§
1291. This appeal is from a final Order ofjudgment that disposes of all the parties’
claims.

Statement of the Issues
The district court erred in dismissing the complaint in this action
because:
(1) The Judge should not have appointed his friends over the case.
(2) Joann Ellison should have filed an answer after being served the
summons upon her.
(3) The district Court erred the defendant Joann Ellison fail to respond,
judgment by default shall be entered against Joann Ellison for the
demanded in the Complaint. Defendant must file your answer or
motion with the Court. But the defendant did not file her answer or
motion with the Court.
The Franklin County Sheriffs office Sheriff Dallas L. Baldwin 410
South High Street 2nd Floor, Columbus Ohio, 43215 Sheriff Service
Return.
(4) August 26, 2019 served to Alponse P. Cincione at 50 West Broad
Street Ste. 700 Columbus, Oh 43215.
DALLAS L. BALDWIN, Sheriff Franklin County, Ohio the summon
was serviced by Michael Turner deputy Sheriff of the Franklin County,
sheriff Department in Ohio upon the Defendant Alphonse P. Cincione
on August 26,2019.DALLAS L. BALDWIN, Sheriff Franklin County,
Ohio the summon was serviced by Tammy L. McCoy Deputy Sheriff of
the Franklin County, Sheriff Department in Columbus Ohio upon the

5
Defendant Joann Ellison on August 27,2019.
The defendant Alphonse P. Cincione fail to respond, judgment by default
shall be entered against Alphonse P. Cincione for the demanded in the
Complaint.
In the district court Defendant fail to file an answer or motion with the
Court. The complaint should not have being dismissed.
Patricia Earnest and Janet Kelly who is denied or cannot enforce in the
United States District Coin! for the Southern District of Ohio Eastern
Division of such state a right under any law providing for the equal civil
rights of citizens of the United States, or of all persons within the
jurisdiction thereof;
For any act under color of authority derived from any law providing for
equal civil rights or for refusing to do any act on the ground that it would
be inconsistent with such law.
STATEMENT
Factual Background
In the district court the Plaintiffs, Patricia Earnest, Janet Kelly filed their Motion
for Writ of Mandamus to set aside Court Order dated February 3, 2020 and
Judgment by the Honorable Judge Sarah D. Morrison on February 3,2020 With
Brief Incorporated be granted and for the Court to issue an order granted the
Plaintiffs Complaint and for the Court to enter a judgment in favor for the
Plaintiffs. And all other relief which Plaintiffs are entitled.
Procedural Background
In this action, Plaintiffs, Patricia Earnest, Janet Kelly some of the
children of the estate of John H. Ellison A.K.A. John H. Ellison, Sr. Also the
John H. Ellison AKA. John H. Ellison children did not hire the attorneys over the
estate the attorneys was appointed by their friend the formal Judge and after
appointing his attorney friends over the case the formal Judge step down off the
case. It appear that the Honorable Lawrence A. Belski was award that the form
Judge appointed his attorney friends over the case and after appointing his friends
over the case the Judge step down off the case and the Honorable Lawrence A.
Belskis is over the case.
The civil matter was file in the Probate Court of Franklin County, Ohio

6

that while Judge Lawrence A. Belskis with the help and assistance of the other
defendants and co—conspirators, set in motion the actions that led to the claim in
this matter, he appears to be immune from suit under Stump v. Sparkman, 435 U.S.
349, 98 S. Ct. 1099 (1978) because all of his illegal actions were taken concerning
matters that was in his jurisdiction.
That the issue ofjudicial immunity should be visited by the Ohio Supreme
Court or the Ohio State Legislature especially when a judge clearly commits
illegal acts that would be criminal if committed by an ordinary citizen.
Jurisdiction of this Court is invoked pursuant to 28 U.S.C. Sections 1331
and 1343 to secure protection and redress deprivation of rights secured by 42
U.S.C. Section 1983, and the Fifth and Fourteenth Amendments of the United
States Constitution and Pursuant to 28 § 115 Ohio is divided into two judicial
districts to be Known as North and Southern Districts of Ohio.
The district court the motion to dismiss the Complaint and the district court
dismissed the motion for writ of mandamus to set aside court order dated February
3, 2020 and judgment by the Honorable Judge Sarah D. Morrison on February 3,
2020 with brief incorporated and entered judgment for the appellees, Patricia
Earnest, Janet Kelly filed their timely Notice of Appeal and paid the filing fee.

REASONS FOR GRANTING THE WRIT
This case presents an issue which goes to the essence of the appellate
process and the fairness and constitutional legitimacy of the judicial process in
deciding cases the same as other courts?
The general rule is “that a federal appellate court does not consider an
issue not passed upon below.” Singleton v. Wulff, 428 U.S. 106,120 (1976). This
rule, like every other rule, has exceptions e.g., where the proper resolution is
beyond any doubt or “injustice might otherwise result. /</., citing Turner v. City of
Memphis, 39 U.S. 350 (196) andHormelv. Helvering,312 U.S. 552, 557, (1941).
As alleged in the original complaint filed on August 19,2019, as well as the motion
for writ of mandamus to set aside court order dated February 3, 2020 and judgment
by the Honorable Judge Sarah D. Morrison on February 3,2020 with brief
incorporated, the facts relevant to the issues on this appeal consist of events and

7

occurrences that extend back to 2002 and relate to the Estate of John Ellison in the
Probate Court of Franklin County Ohio the Honorable Lawrence A. Belskis,
Judge.
John H. Ellison, Sr., is the father of Patricia Earnest and Janet Kelly and John H.
Ellison, Sr., had a WILL and the WILL was never contested so it should not have
being filed in Probate Court of Franklin County, Ohio. The Judge should have
never appointed his fiiends over the Estate the attorney Jack G. Gibbs, Jr. and he
was paid over $34,000.00 and attorney Alphonse P. Cincione was paid over
$16,000.00 and attorney Bruce Randall was paid over $ 8,000.00 also attorney
Susan Wasserman was paid over $6,000.00.
Patricia Earnest, Janet Kelly and are some of the children of the estate of
John H. Ellison A.K.A., John H. Ellison Sr., who are the Plaintiffs in the district
Court in this matter.
In the district court the defendants in this case are officers of the court who are
Attorneys that was appointed by unnamed Judge who appear to be their friend.
Who was appointed was Susan S. Wasseman, Alphones P. Cincione. Jack G.
Gibbs Jr.
That in the district court the unnamed defendant is an Caucasian judge of the
Probate Court of Franklin County, Ohio the Honorable Lawrence A. Belskis Judge
of the probate Court of Franklin County, Ohio the unnamed defendant is an
Caucasian Circuit Judge from a minority Judicial District that gives Liberal Whites
candidates for judgeships advantages, and not the same judicial scrutiny, over other
races or ethnic groups seeking a judgeship in the same Judicial District
affirmatively carved out for Liberal Whites Candidates seeking judgeships.
That in the district court the named defendants are White Attorneys from the
same Judicial District, who practiced law, at the times of all actions, complained of
in this lawsuit, in same Judicial District as the unnamed defendants at all relevant
times.
That the facts and inferences in this case will be clear that the unnamed
defendants in this case conspired with the named defendants in this case to
generate for them fees at the expense of the plaintiffs and unlawfully interfered

$

with a WILL which is an contract by John H. Ellison for his children and his
business he owned. The defendants in this case to generated for them fees at the
expense of the plaintiffs and unlawfully interfered with their contract and business
expectancy with their father’s broker, which resulted in tortious interference with
the plaintiffs contract and business expectancy he had in a contract to represent
estate of John H. Ellison A. K. A. John H. Ellison, Sr. that there is a WILL and no
need for the case to be put in Probate Court of Franklin County, Ohio.
That the facts and interferences in this case will be clear that in the process
of the unnamed defendants and the defendants illegally trying to pressure the
plaintiffs into entering a so-called illegal distribution may be liable to the estate up
to the value of the distribution and may be required to return all or any part of
value of the distribution if a valid claim is subsequently made against the estate the
account has not been settle because there are some money in some other account
and places.
The rights of any person with a pecuniary interest in the estate are not barred by
approval of an account pursuant to division (A) and (B) of this section. These
rights may be barred following a hearing on the account pursuant to section
2109.33 of the Revised Code.
The State Court denied Patricia Earnest, Janet Kelly and Michael Ellison who are
heirs the daughters and son of John H. Ellison A.K.A., John H. Ellison, Sr. that
any person who is denied or cannot enforce in the Courts of such State a right
under any law providing for equal civil rights of citizens of the United States, or of
all persons within the jurisdiction thereof; for any act under color of authority
derived from any law providing for equal rights, or for refusing to do any act on
the ground that it would be inconsistent with such law.
DEFENITION OF A CIVIL CONSPIRACY
A “conspiracy” is an agreement to accomplish a purpose that is
unlawful or oppressive or to accomplish, by unlawful or oppressive means, a
purpose that is not in itself unlawful or oppressive.” See AMI 714 Civil.

9
DEFINITION OF TORTIOUS INTERFERENCE WITH A WILL OR
INTERFERENCE WITH CONTRACTUAL RELATIONS TO THE WILL OR
BUSINESS EXPECTANCY,PROSSER AND KEETON ON TORTS, FIFTH
EDITION, SECTION 129 (1984)
“It is usually said that tort liability may be imposed upon a defendant
who intentionally and improperly interferes with the plaintiffs rights under a
contract or makes the contract rights more costly or less valuable.”
That in the district court the Plaintiffs sustained damages in this matter
because one or more of the defendants set in motion legal proceeding involving the
plaintiffs concerning the distribution of the Estate of John H. Ellison A.K.A. John
H. Ellison, Sr. in the Probate Court of Franklin County, Ohio the
Honorable Lawrence A. Belskis, Judge. That while the Honorable Lawrence A.
Belskis, Judge of the Probate Court of Franklin County, Ohio, with the help and
assistance of the Co- Administrators Attorney Alphonse P. Cincione and the CoAdministrators Attorney Jack G. Gibbs, Jr., the Attorney Alphonse P. Cincione and
Attorney Jack G. Gibbs, Jr. file a motion for instructions in the estate and requests
instruction from the State Court on the investments that the Co-Administrators can
make on behalf of the estate of John H. Ellison A.K.A. John H. Ellison, Sr. the
Co-Administrators Attorney Alphonse P. Cincione and Co- Administrators
Attorney Jack G. Gibbs Jr. sent a copy of a letter from Stephen Metcalf of Advest,
who is the Investment advisor for this estate.
The letter was sent to the Stephen Metcalf who is the Investment at the Trust
Division of Advest Bank and Trust Company.
Patricia Earnest, Janet Kelly, and Michael Ellison they believe that all the money
and the investments of the Estate of John H. Ellison A.K.A. John H. Ellison, Sr.
has not been accounted for they believe it is more investments because there is
investments that the company did not give them the full account number or tell
them how much money is in the account.
There was a WILL in place there was no need to put the case in Probate Court of
Franklin County, Ohio and after putting the case in Probate Court the unnamed

10
Judge appointed his friend Attorney Jack G. Gibbs Jr. and Attorney Alphones P.
Cincione and the unnamed Judge step down off the case.
ALL PLEADINGS, UNDER OHIO LAW, MUST BE BASED UPON A
REASONABLE INQUIRY CONCERNING THE LAW BY AN ATTORNEY
THAT THE SAME IS WELL GROUNDED IN FACT AND IS WARRANTED
BY EXISTING LAW OR GOOD FAITH ARGUMENT FOR THE EXTENSION,
MODIFICATION, OR REVERSAL OF EXISTING LAW AND IS NOT
INTERPOSED FOR ANY IMPROPER PURPOSE, SUCH AS TO HARASS OR
TO CAUSE UNNECESSARY DELAY OR NEEDLESS INCREASE IN THE
COST OF LITIGATION
This is a case where Jack G. Gibbs Jr., a friend of the unnamed Judge,
was appointed by him presumably to represent the interest of the estate of John H.
Ellison, Sr., but appeared in many instance in communications with the tort
feasors’ lawyers as trying to abort the estate from which John H. Ellison, Sr.
would receive benefits by in writing schedule of claims Attorney Jack G. Gibbs, Jr.
legal fees in the amount of $ 34,401.90 and $16,583.06 and Attorney Alphonse
Cincione fees in the amount of $ 22.750.00 also $15,112.50 and there Attorney
friends in legal fees S. Brewster Randall receive benefits in the amount of
$ 8,729.17 also Susan R.
Wasserman receive benefits in legal fee $6,406.25 also Joseph F. Frasch, Jr. legal
fee $3,450.00.
FACTS CONSTITUTING BASIS FOR ALL CLAIMS IN THIS MATTER
On September 4, 2002 Attorney Alphonse P. Cincione and Attorney Jack
G. Gibbs, Jr. file a motion for instructions in the Probate Court of Franklin County,
Ohio there was no need to file a motion for instructions and requesting instructions
from the court on the investments that the Co- Administrators can make on behalf
of the Estate because a WILL was already in place.
That it appear there is money that has been received and including
investments the Plaintiffs is seeking a writ of mandamus and a Writ of Prohibition
and also is seeking a Federal Grand Jury Investigation and Congressional
Investigation.

11
The Plaintiffs are seeking any past-due money or any investments that was not paid
to the Estate and any intercept federal and/or state income tax refund intercept any
other payments own to the estate and any federal Grants and any real property
known and unknown.
“It is usually said that tort liability may be imposed upon a defendant who
intentionally and improperly interferes with the Plaintiffs their rights under a
WILL the defendants interference cause the plaintiffs to lose a right under the
WILL or making the WILL less valuable.
Plaintiffs sustained damages in this matter because one or more of the
defendants set in motion legal proceeding involving the plaintiffs concerning the
distribution of the estate of John H. Ellison A.K.A. John H. Ellison, Sr. over
$191,086.81.
That in the district court the Plaintiffs Patricia Earnest sustained damages in
this matter she was put out of her father house that he own.
Appellant-Plaintiffs sustained damages in this matter because the unnamed
Appellees-defendant is an Caucasian judge of the Probate Court of Franklin
County, Ohio the Honorable Lawrence A. Belskis Judge of the probate Court of
Franklin County, Ohio the unnamed defendant is an Caucasian Circuit Judge from
a minority Judicial District that gives Liberal Whites candidates for judgeships
advantages, and not the same judicial scrutiny, over other races or ethnic groups
seeking a judgeship in the same Judicial District affirmatively carved out for
Liberal Whites Candidates seeking judgeships.
Appellant- Plaintiffs sustained damages in this matter because all of the
named Appellees-defendants are White Attorneys from the same Judicial District,
who practiced law, at the times of all actions, complained of in this lawsuit, in
same Judicial District as the unnamed Appellees-defendants at all relevant times.
Appellant-Plaintiffs sustained damages in this matter because the
interferences in this case will be clear that the unnamed defendant in this case
conspired with the named Appellees-defendants in this case to generate for them
fees at the expense of the appellant-plaintiffs and unlawfully interfered with a

12
WILL which is an contract by John H. Ellison for his children and his business he
owned. The appellees- defendants in this case to generate fees at the expense of the
appellant-plaintiffs and unlawfully interfered with their contract and business
expectancy with their father attorney, which resulted in tortious interference with
the appellant’ s-plaintiffs contract and business expectancy he had in a contract to
represent estate of John H. Ellison A. K. A. John H. Ellison, Sr. that there is a
WILL and there was no need for the case to be put in Probate Court of Franklin
County, Ohio.
That the facts and inferences in this case will be clear that in the process
of the unnamed defendant and the defendants illegally trying to pressure the
plaintiffs into entering a so-called illegal distribution may be liable to the estate up
to the value of the distribution and may be required to return all or any part of
value of the distribution if a valid claim is subsequently
made against the estate the account has not been settle because there are some
money in some other account in other places and other business’s.
Federal Tort Claims Act
An act passed in 1946, which confers exclusive jurisdiction United States District
Courts to hear claims against the United States, “for money damages, accruing on
and after January 1, 1945, for injury or loss of property, or personal injury or death,
caused by the negligent or wrongful act or omission of any employee of the
government while acting within the scope of his office or employment under
circumstances where the United States, if a private person, would be liable to the
claimant in accordance with the law of the place where the act or omission
occurred.” 28 U.S.C. 1346 (b).

In the district court Patricia Earnest, Janet Kelley motion for writ of mandamus to
set aside court order dated February 3, 2020 and judgment by Honorable Judge,
Sarah D. Morrison on February 3, 2020 with brief incorporated was denied and
the district erred by denying Patricia Earnest, Janet Kelly motion.
Joann Ellison did not file an Answer after been serviced the summon of the
Complaint upon the defendant, Joann Ellison.

13
The matter before the Court the issue is that in the district court the defendant
did not file an Answer to the Complaint in the United States District Court for the
Southern District of Ohio Eastern Division that is required by the United States
District Court for the Southern District of OhioEastem Division pursuant to the
Federal Rules of Civil Procedure.
Joann Ellison did not file a motion to dismiss the Plaintiffs Complaint the
Honorable Judge Sarah D. Monison took her own initiative to dismiss Plaintiffs
complaint without the defendant filing a motion to dismiss Plaintiffs Complaint.
The Court error (“R&R”) issue by the Magistrate Judge on January 3,2020 (ECF
No. 10).
Patricia Earnest and Janet Kelly in the district court they attach proof of service to
the motion to set aside plaintiffs Patricia Earnest and Janet Kelly filed their
“motion for Relief from Judgment or Order Motion to set Aside Court Order Dated
October 28,2019” on January 13,2020. (ECF No. 11.) That filing, which the
Court shall treat as an objection to the R&R, seemingly argues that service was not
effected on the Defendant Joann Ellison she was served a summon and the
summons’s was served by the Sheriff and after being served a summons by the
Sheriff Joann Ellison call Patricia Earnest and ask why was she served a summons
complaint. The Magistrate Judge October 28,2019 Ordered denying Plaintiffs
motions for default for lack of service should not be denied. The Plaintiffs Motion
for Writ of Mandamus to set aside Court order October 28,2019 Order denying
Plaintiffs Motions for default for lack of service.
In the district court Plaintiffs Motion for Writ of Mandamus to side Court
Overruled and the relief sought and denies accordingly, the Court Overrules
Plaintiffs objections to the R&R and denies plaintiffs motion to set aside court
order dated October 28,2019. (ECF No. 11.) Plaintiffs Motion for Writ of
Mandamus to set aside Court adopts the R&R (ECF No. 10) and dismisses
Plaintiffs Complaint.
The district court erred in dismissing the Plaintiffs, Patricia Earnest, Janet
Kelly the Complaint against the defendants.
In the district court plaintiffs seeking before us; in our presence, i, e, in our

14
Court after file this Complaint in the United States District Court for the Southern
District of Ohio Eastern Division the plaintiff is seeking a grand jury investigation
and a Congressional Investigation.
In the district court the Plaintiffs Patricia Earnest and Janet Kelly lawsuit has
been filed against the defendant Alphonse P. Cincione and the defendant has not
filed an answer or responded to the Plaintiffs Complaint therefore the defendant
failed to file an answer the defendant is in default.
In the district court the Defendant is in Default because the defendant has not filed
an answer or has not responded to a summons within 21 days after service of the
summon on the defendant Alphonse P. Cincione.
That in the district court Patricia Earnest, Janet Kelly lawsuit has been filed
against Joann Ellison and Joann Ellison did not filed an answer or responded
to Patricia Earnest, Janet Kelly Complaint and is in default because Joann Ellison
has not responded to an summons within 21 days after service of the summons on
Joann Ellison.
In the district court Alphonse P. Cincione fail to respond, judgment by default
shall be entered against Alphonse P. Cincione for the demanded in the Complaint.
Defendant must file your answer or motion with the Court. But the defendant did
not file his answer or motion with the Court.
That in the district court the defendant Joann Ellison fail to respond, judgment
by default shall be entered against Joann Ellison for the demanded in the
Complaint. Defendant must file your answer or motion with the Court. But the
defendant did not file her answer or motion with the Court.
The Franklin County Sheriffs office Sheriff Dallas L. Baldwin 410 South
High Street 2nd Floor, Columbus Ohio, 43215 Sheriff Service Return.
August 26,2019 served to Alponse P. Cincione at 50 West Broad Street Ste. 700
Columbus, Oh 43215.
DALLAS L. BALDWIN, Sheriff Franklin County, Ohio the summon was serviced
by Michael Turner deputy Sheriff of the Franklin County, sheriff Department in
Ohio upon the Defendant Alphonse P. Cincione on August 26,2019.

15
DALLAS L. BALDWIN, Sheriff Franklin County, Ohio the summon was
serviced by Tammy L. McCoy Deputy Sheriff of the Franklin County, Sheriff
Department in Columbus Ohio upon the Defendant Joann Ellison on August 27,
2019.
That in the district court Patricia Earnest and Janet Kelly who is denied or
cannot enforce in the United States District Court for the Southern District of Ohio
Eastern Division of such state a right under any law providing for the equal civil
rights of citizens of the United States, or of all persons within the jurisdiction
thereof;
For any act under color of authority derived from any law providing for equal
civil rights or for refusing to do any act on the ground that it would be inconsistent
with such law.
The gravamen of Patricia Earnest and Janet Kelly argument in this appeal is
that, under the peculiar set of facts of their case against the defendants-appellees,
the district court erred in dismissing this civil action on the pleading because the
original complaint assert legal claims cognizable under 42 U.S.C. § 1983 and plead
specific facts in support of those claims.
The original complaint asked the court below to enjoin the Judge of the
probate court of Franklin County, Ohio, Lawrence A. Blskis, Judge for carrying
out the regime for the former judge.
. Patricia Earnest, Janet Kelly and Michael Ellison some of the children of the
estate of John H. Ellison A.K.A. John H. Ellison, Sr.
The civil matter was file in the Probate Court of Franklin County, Ohio that
while Judge Lawrence A. Belskis with the help and assistance of the other
defendants and co—conspirators, set in motion the actions that led to the claim in
this matter, he appears to be immune from suit under Stump v. Sparkman, 435 U.S.
349, 98 S. Ct. 1099 (1978) because all of his illegal actions were taken concerning
matter that was in his jurisdiction.
3. That the issue ofjudicial immunity should be visited by the Ohio Supreme
Court or the Ohio State Legislature especially when a judge clearly commits

16
illegal acts that would be criminal if committed by an ordinary citizen.
4. That the unnamed defendant is an Caucasian judge of die Probate Court of
Franklin County, Ohio the Honorable Lawrence A. Belskis Judge of the probate
Court of Franklin County, Ohio the unnamed defendant is an Caucasian Circuit
Judge from a minority Judicial District that gives Liberal Whites candidates for
judgeships advantages, and not the same judicial scrutiny, over other races or
ethnic groups seeking a judgeship in the same Judicial District affirmatively carved
out for Liberal Whites Candidates seeking judgeships.
5. That all of the named defendant are White Attorneys from the same Judicial
District, who practiced law, at the times of all actions, complained of in this
lawsuit, in same Judicial District as the unnamed defendant at all relevant times.
That the facts and inferences in this case will be clear that the unnamed
defendant in this case conspired with the named defendants in this case to generate
for them fees at the expense of the plaintiffs and unlawfully interfered with a
WILL which is an contract by John H. Ellison for his children and his business he
owned. The defendants in this case to generated for them fees at the expense of the
plaintiffs and unlawfully interfered with their contract and business expectancy
with their father attorney, which resulted in tortious interference with the plaintiff’s
contract and business expectancy he had in a contract to represent estate of John H.
Ellison A. K. A. John H. Ellison, Sr. that there is a WILL and not need for the case
to be put in Probate Court of Franklin County, Ohio.
That the facts and inferences in this case will be clear that in the process of
the unnamed defendant and the defendants illegally trying to pressure the plaintiffs
into entering a so-called illegal distribute may be liable to the estate up to the value
of the distribution and may be required to return all or any part of value of the
distribution if a valid claim is subsequently made against the estate the account has
not been settle because there are same money in same other account. The total of
John H. Ellison, Sr. aka John Henry Ellison, Sr. who is deceased the estimated
value of the estate is: personal property $ 5.000.00 and the Annual real estate
rentals $ 5.000.00 and the real estate $ 90.000.00 and just that total of the estimated
estate is $100,000.00 that was about Januaiy 29, 2001. John Henry Ellison, Sr.
who owned the Oak Wood Market.
'

17
The district court erred in dismissing the complaint in this action
because: (1) Joann Ellison was not entitled be dismiss for the complaint
against her(2) This case is not moot Patricia Earnest and Janet Kelly has
a genuine issue for trial in the district court .(3) The cause action in the
complaint states a claim of the Fourteenth Amendment denial the of
due process of law and arbitrary discrimination and the federal law
prohibitions against discriminatory treatment the state is obligated to
comply with the provision under the equal protection under the Fourteenth
Amendment to the federal Constitution and the action in the Complaint
States a claim of denial of equal of equal protection under the Fourteenth
Amendment to the federal Constitution.

This court reviews de novo a district court’s judgment or order on the pleadings
pursuant to federal Rule of Civil Procedure 12 (c )
Under the Federal Rule of Civil Procedure a pleading must contain a short and
plain statement of the claim showing that the pleader is entitled to relief. Ashcroft
v. Iqbal, 129 S. Ct. 1937,1949 (2009). The pleading standard of Rule 8 does not
require detailed factual allegations, but it demands more than an unadorned, thedefendants-unlawftilly-harmed-Patricia Earnest and Janet (Kelley) Kelly. Iqbal, 129
S. Ct. at 1949 (citing Bell Atl. Corp. v. Twombly,550 U.S. 544, 555 (2007) (citing
Papasan v. Allain, 478 U.S. 265,286 (1986). A pleading that offers labels and
conclusions or a formulaic recitation of the elements of a cause of action will not
do. Iqbal, 129 S. Ct. at 1949 (citing Twonbly, 550 U.S. at 555). Nor does a
complaint suffice if it tenders naked assertions devoid of further factual
enhancement. Iqbal, 129 S. Ct. at 1949 (citing Twombly, 550 U.S. at 557).
To survive a motion to dismiss, a complaint must contain sufficient factual
matter, accepted as true, to state a claim to relief that is plausible on its face.
Iqbal,129 S. Ct. at 1949 (citing Twombly, 550 U.S. at 570). A claim has facial
plausibility when the plaintiffs pleads factual content that allows the court to draw
the reasonable inference that the defendants is liable for the misconduct alleged.

18
Iqbal, 129 S. Ct. at 1949 (citing Twombly, 550 U.S. at 556). The plausibility
standard is not akin to a probability requirement, but it asks for more than a sheer
possibility that a defendants has acted unlawfully. Iqbal, 129 S. Ct. at 1949 (citing
Twombly, 550 U.S. at556). Where a complaint pleads facts that are merely
consistent with the defendants liability, it stop shot of the line between possibility
and plausibility of entitlement to relief. Iqbal, 129 S. Ct. at 1949 (citing Twombly,
550 U.S. at 557). Rule 12 (b)(6) does not countenance dismissal based on a judge’s
disbelief of a complaint‘s factual allegations. Bell Atl., Corp. v. Twombly, 550
U.S. 544, 556 (2007) (citing Neitzke v. Williams, 490 U.S. 319,327 (1989).
The analysis and conclusions of the District Court
In its decision on Respondents there was not a motion to dismiss by the
Respondents the district court dismiss the Petitioners complaint and the individual
were not entitled to be dismiss for the complaint and therefore Patricia Earnest and
Janet (Kelley) Kelly has no claim for money damages the district court decision on
dismiss the complaint the defendant was served a summons and the defendant fail
to file an answer the summons that was served upon the defendant and this
miscarry ofjustices and the district court decision was unreasonableness wrong
Patricia Earnest and Janet Kelly who was denied or cannot enforce in the district
Court of such a right under any law providing for the equal civil rights of citizens
of the United States or of all persons within the jurisdiction thereof, for any act
under color of authority derived from any law providing for equal rights, or for
refusing to do any act on the ground that it would be inconsistent with such law
and for equal protection of the law and equal protection is a clause from the
Fourteenth Amendment to the United States Constitution. As to Joann Ellison, also
the district court below stated the following:
Patricia Earnest and Janet (Kelley) Kelly argues that the allegation in their
complaint show Joann Ellison did not file an Answer after been serviced the
summon of the Complaint upon the defendant, Joann Ellison.
The matter before the Court the issue is that the defendant did not file an
Answer to the Complaint in the United States District Court for the Southern
District of Ohio Eastern Division that is required by the United States
District Court for the Southern District of Ohio Eastern Division pursuant to

i

19
the Federal Rules of Civil Procedure. That defendant, Joann Ellison did not
file a motion to dismiss the Plaintiffs Complaint the Honorable Judge Sarah
D. Morrison took her own initiative to dismiss Plaintiffs complaint without
the motion to dismiss Plaintiffs Complaint. The Court
error (“R&R”) issue defendant filing a by the Magistrate Judge on January 3,
2020 (ECF No.
10). The Plaintiff attach proof of service to the motion to set aside plaintiffs
Patricia Earnest and Janet Kelly filed their “motion for Relief from Judgment
or Order Motion to set Aside Court Order Dated October 28,2019” on
January 13, 2020. (ECF No. 11.)
That filing, which the Court shall treat as an objection to the R&R, seemingly
argues that service was not effected on the Defendant Joann Ellison she was served
a summon and the summons’s was served by the Sheriff and after being served a
summons by the Sheriff Joann Ellison call Patricia Earnest and ask why was she
served a summons complaint. The Magistrate Judge October 28,2019 Ordered
denying Plaintiffs motions for default for lack of service should not be denied. The
Plaintiffs Motion for Writ of Mandamus to set aside Court order October 28,2019
Order denying Plaintiffs Motions for default for lack of service.
Plaintiffs Motion for Writ of Mandamus to side Court Overruled and the relief
sought and denies accordingly, the Court Overrules Plaintiffs objections to the
R&R and denies plaintiffs motion to set aside court order dated October 28,2019.
(ECF No. 11.) Plaintiffs Motion for Writ of Mandamus to set aside Court adopts
the R&R (ECF No. 10) and dismisses Plaintiffs Complaint.
The Court erred in dismissing the Plaintiffs, Patricia Earnest, Janet Kelly the
Complaint against the defendants.

20

Before us; in our presence, i, e, in our Court after file this Complaint in the
United States District Court for the Southern District of Ohio Eastern Division the
plaintiff is seeking a grand juiy investigation and a Congressional Investigation.
The Plaintiffs Patricia Earnest and Janet Kelly lawsuit has been filed against the
defendant Alphonse P. Cincione and the defendant has not filed an answer or
responded to the Plaintiffs Complaint therefore the defendant failed to file an
answer the defendant is in default.
The Defendant is in Default because the defendant has not filed an answer or has
not responded to a summons within 21 days after service of the summon on the
defendant Alphonse P. Cincione.

The Plaintiffs Patricia Earnest, Janet Kelly lawsuit has been filed against the
defendant Joann Ellison and the defendant has not filed an answer or responded to
the Plaintiffs Complaint and is in default because the defendant has not responded
to an summons within 21 days after service of the summons on the defendant
Joann Ellison.
The defendant Alphonse P. Cincione fail to respond, judgment by default shall
be entered against Aiphonse P. Cincione for the demanded in the Complaint.
Defendant must file your answer or motion with the Court. But the defendant did
not file his answer or motion with the Court.
The defendant Joann Ellison fail to respond, judgment by default shall be
entered against Joann Ellison for the demanded in the Complaint. Defendant must

21
file your answer or motion with the Court. But the defendant did not file her
answer or motion with the Court.
The Franklin County Sheriffs office Sheriff Dallas L. Baldwin 410 South High
Street 2nd Floor, Columbus Ohio, 43215 Sheriff Service Return.
August 26,2019 served to Alponse P. Cincione at 50 West Broad Street Ste. 700
Columbus, Oh 43215.
DALLAS L. BALDWIN, Sheriff Franklin County, Ohio the summon was serviced
by Michael Turner deputy Sheriff of the Franklin County, sheriff Department in
Ohio upon the Defendant Alphonse P. Cincione on August 26,2019.
DALLAS L. BALDWIN, Sheriff Franklin County, Ohio the summon was
serviced by Tammy L. McCoy Deputy Sheriff of the Franklin County, Sheriff
Department in Columbus Ohio upon the Defendant Joann Ellison on August 27,
2019.
Patricia Earnest and Janet Kelly who is denied or cannot enforce in the United
States District Court for the Southern District of Ohio Eastern Division of such
state a right under any law providing for the equal civil rights of citizens of the
United States, or of all persons within the jurisdiction thereof;
For any act under color of authority derived from any law providing for equal
civil rights or for refusing to do any act on the ground that it would be inconsistent
with such law.
Patricia Earnest, Janet Kelly Motion for Writ of Mandamus to set aside Court
Order dated February 3,2020 and Judgment by Honorable Judge Sarah D.

Respectfully Submitted,
/s/ Patricia Earnest
Patricia Earnest
1240 East Cadron Gap Road
Conway, Arkansas 72032

Respectfully Submitted,
/s/ Janet Kelly
Janet Kelly
1860 Tree Brooke Lane
Snellville, GA 30078

